\<V|»
No. 19-10522-DD
Supreme C~
°urt,
FILED

In The
The Supreme Court Of The United States

U.S.

MAR - 5 2020
OFFICE OF Tire

clerk

Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent
Mark Millar
Defendant- Respondent

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Michael Bennett
P.O. Box 1532
r

Norcross, Georgia 30091
404-271-0713

RECEIVED
MAY 13 2020
a^?cToHuER^

Questions Presented for Review
1. If the Court finds that the Marvel Character “Falcon” in the 2014 Captain
America The Winter Soldier movie looks strikingly similar from the neck down to
my character “Owl” from the Owl book covers would this give more validity to my
claim that Marvel/Mark Millar is stealing Intellectual Property from me?
2. In the beginning my case was based on 3 Marvel movies and 1 Marvel TV show
when damages were stated to be 1.2 Billion dollars but because Marvel/Mark Millar
refuse to stop stealing Owl IP from me my case now encompasses over a dozen
2011-2019 Marvel Avenger series movies and 1 Marvel TV show, should the
Supreme Court increase damages?
3. If I can prove beyond a reasonable doubt with Marvel/Mark Millar’s own
“Admissions of Guilt” that not only are they specifically stealing Owl IP from me
but they even have to rub my nose in the fact that they are stealing from me by
taunting and threating me with their plagiarism and their ability to steal my
identity by hacking my phone, would this give more validly to my case?
4. Have I provided enough evidence to meet the Supreme Court’s Standard that it is
reasonable to expect that Discovery will lead to more evidence supporting my claim?
5. During the 3 year course of my case Marvel/Mark Millar has not presented any
evidence that their characters were looking like or acting like my character “Owl”;
so is it reasonable to assume that Marvel/Mark Millar have no evidence to support
that their characters looked or acted in a way I have accused them of before I
answered their Ad on their website for submissions in 2008?
6. There are pictures of my 2008 “Poor Man’s” Copyright envelope on my 2011
Defamation Campaign Proof CD, I turned my 2008 “Poor Man’s” Copyright to the
State Court’s Clerks office, does the existence of my 2008 “Poor Man’s” Copyright
have any bearing on the legality of my case?
7.1 provided a copy of my 2011 Defamation Campaign Proof CD to the State Court
and the defense when I process served them; The defense did not provide me a copy
of 2011 CD when they removed my case from the State Court; if the defense omitted
important case evidence like my 2011 Defamation Campaign Proof CD when they
removed my case from the State Court would this have any bearing on the legality
of my case?

i

8. Have I provided enough evidence to meet the Supreme Court’s Standard that
Marvel/Mark Millar not only stole almost every sentence and every detail from my
Owl books and Owl illustrations but also stole my form of expression and style?
9. Because I was under the false impression that I did not properly process serve
Mark Millar and wrote in my motion to remove Mark Millar as a Defendant I would
make every effort to properly process serve Mark Millar if I had not and I only
wanted Mark Millar removed if it would fix my case, so my case could move on and
because this motion did not fix my case should Mark Millar remain as a Defendant?

*

J

ii

Parties to the Proceeding and Rule 29.6 Statement

1. Mark Millar
2. Marvel Entertainment, LLC traded as NYSE: MVL
Marvel Entertainment, LLC is a wholly owned subsidiary of The Walt Disney
Company
The Walt Disney Company is traded as NYSE: DIS.

iii

Table of Contents
Page
Questions Presented

i, u

Parties to the Proceeding and Rule 29.6 Statement

m

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

2

Reasons for Granting the Petition

50

A. My case has reached the requirement set forth by the Legal Standard
that it is reasonable to expect Discovery will lead to more evidence
bolstering my case..........................................................................................

50

B. During the course of my case I have presented evidence that
Marvel/Mark Millar not only have been stealing Owl IP from me since
2008, hacked into my phone to spy on me and have indeed stolen my form of
expression and style elements protected under Federal Copyright
Law.........................................................................................................................

50

C. Because Marvel/Mark Millar imbed Anti-American Subliminal
Programming into their media productions my case should be reviewed
in hopes to understand the reasoning and scope behind Marvel/Mark Millar’s
agenda.............................................. .......................................................................

50

Conclusion

56

iv

Table of Contents - Continued
Page
Appendix
Appendix A
Opinion, The United States District For The Northern District Of
Georgia Atlanta Division entered on January 11, 2019 .................

App. 1

Appendix B
Opinion, The United States Court Of Appeals For The Eleventh Circuit
entered on October 30, 2019 .......................................................................

App. 6

Appendix C
Opinion, The United States Court Of Appeals For The Eleventh Circuit
entered on December 13, 2019 ...................................................................

App. 9

Appendix D
Opinion, The United States Court Of Appeals For The Eleventh Circuit
entered on December 13, 2019 ...................................................................

App. 11

Appendix E
Constitutional and Statutory Provisions Involved

App. 13

Appendix F
Motion, The United States Court Of Appeals For The Eleventh Circuit,
to Amend Exhibit 1 (Sample of Proof CD) turned in with my
Petition for Rehearing of case 19-10522-DD on November 20, 2019.......

App. 14

Appendix G
Motion, In The State Court of Gwinnett County State of Georgia,
to introduce 7/12/2008 Owl Unlikely Crusader Poor Man’s copyright
and Marvel 9/10/2008 Post Office Receipt as exhibits .... ....................

App. 16

Appendix H
Motion, In The United States District Court For the Northern
District Of Georgia Atlanta Division, to introduce 7/12/2008 Poor Man’s
Copyright and Marvel Post Office Receipt ................................................

App. 17

<0

Table Of Contents - Continued
Page
Appendix I
Motion, In The United States District Court For the Northern
District Of Georgia Atlanta Division, to force Marvel Entertainment
to accept service on behalf of Mark Millar ...........................................

App. 18

Appendix J
Motion, In The United States District Court For the Northern
District Of Georgia Atlanta Division, to Remove Mark Millar as
Defendant from Case l:17-CV-03505-ELR ..................................

App. 20

Exhibits
Exhibit 1
Excerpt from Captain America The Winter Soldier exhibit 16
Owl in Street Clothes = Falcon in Street Clothes .......................................
This Exhibit provides evidence of some of Marvel/Mark Millar’s
“Admissions of Guilt” as they use their writing to taunt and threaten me.

Ex. 1

Exhibit 2
Excerpt from Captain America The Winter Soldier exhibit 4
Seven Matching Wounds..............................................................
Ex. 6
This Exhibit provides evidence that Marvel/Mark Millar used my Owl drawings
to recreate scenes in the 2014 Captain America The Winter Soldier movie.

vi

Table of Authorities Cited

FEDERAL CASES

Page

Gaiman v. Mcfarlane, 360 F.3d 644(7th Cir. 2004)

3

Walt Disney Prod. V. Air Pirates, 581 F.2d 751(9th Cir. 1978)

3

DeCarlo v. Archie Comic Publ’ns, Inc. 127 F. Supp. 2d 497(S.D.N.Y.),
affd, 11 Fed, Appx. 26 (2d Cir. 2001)......................................................

3

FEDERAL STATUTES
App. 14

17 U.S.C. Subsection 102

vii

Opinions Below
1. The United States District For The Northern District Of Georgia Atlanta Division
Dismissed with Prejudice Michael Bennett’s case and Denied Marvel
Entertainment’s motion for attorney fees entered on January 11, 2019 (Attached
hereto as Appendix A) and is unpublished.
2. The United States Court Of Appeals For The Eleventh Circuit Affirms Order of
The United States District Court For The Northern District and Michael Bennett’s
motion to introduce evidence on a CD, increase damages, and issue subpoenas are
Denied entered on October 30, 2019 (Attached hereto as Appendix B) and is
unpublished.
3. The United States Court Of Appeals For The Eleventh Circuit Grants Michael
Bennett’s motion to Amend Exhibit 1 (Sample of 2011 Proof CD) turned in with
Petition for Rehearing entered on December 13, 2019 (Attached hereto as Appendix
C) and is unpublished.
4. The United States Court Of Appeals For The Eleventh Circuit Denies Michael
Bennett’s timely Petition for Panel Rehearing, Appellant’s Motion to inquire if the
Defendants provided the Court with a copy of his 2011 Marvel/Mark Millar
Defamation Proof CD is Denied, Appellant’s Motion to introduce samples of his
2011 Marvel/Mark Millar Defamation Letter with Proof CD is Denied entered on
December 13, 2019 (Attached hereto as Appendix D) and is unpublished.
Jurisdiction
The date on which The United States Court Of Appeals For The Eleventh Circuit.
District Court decided my case was January 11, 2019.
A timely petition for rehearing was denied by The United States Court Of Appeals
For The Eleventh Circuit on the following date: December 13, 2019, and a copy of
the order denying rehearing is (Attached hereto as Appendix D).
The jurisdiction of this Court is invoked under 28 U.S.C. ? 1254(1).
Constitutional and Statutory Provisions Involved
1. Title /Chapter 17 of the United States Code subsection 102 Subject Matter of
Copyright: In General (Attached hereto as Appendix E on page App. 13).

1

Statement of the Case
I am suing Marvel Entertainment LLC. and Mark Millar for Willful Criminal
Copyright Infringement for 1.2 Billion dollars in lost income for the theft of my Owl
; IP and Owl books 2008 Owl Unlikely Crusader and 2012 Owl Knight’s Quickening
used in the Marvel 2011-2019 Avenger Series movies.'
.
.
There is a list of 2011-2019 Avenger series projects with stolen Owl IP in them on
page 41.
Below 2008 Owl Unlikely Crusader book cover. '

V

l

2

Below 2012 Owl Knight’s Quickening book cover.

I believe that the following cases apply to my case.
Pictorial characters drawn for comic books or film cartoons are readily
protected by copyright, as pictorial and graphic works, provided they
meet the minimal requirements for “original authorship. Gaiman v.
Mcfarlane, 360 F.3d 644(7th Cir. 2004); Walt Disney Prod. V. Air
Pirates, 581 F.2d 751(9th Cir. 1978) (Mickey Mouse parodied in
defendant’s risque comic books).
The copyrightable elements of an animated character have been said to
“extend not merely to the physical appearance of the animated figure,
but also to the manner in which it moves, acts and portrays a
combination of characteristics.” DeCarlo v. Archie Comic Publ’ns, Inc.
127 F. Supp. 2d 497(S.D.N.Y.), affd, 11 Fed, Appx. 26 (2d Cir. 2001)
(unpublished).

3

In my case I have made some outrageous unbelievable claims that Marvel/Mark
Millar Hacked into my phone to spy on me, that Marvel/Mark Millar use their
copyright infringing movies to Taunt and Threaten my life.
I believe that these outrageous unbelievable claims are actually freely given
Admissions of Guilt by the Defendants Marvel Entertainment LLC and Mark
Millar and are proof that Marvel/Mark Millar are specifically stealing Owl IP from
me.
It is my testimony that I could not and would not make these outrageous
unbelievable claims unless I could present the Court with concrete proof of these
claims.
On September 10, 2008 I answered a Marvel advertisement on the Marvel web site
soliciting people to send new comic book ideas to their address so I sent them my
2008 book Owl Unlikely Crusader with my Owl art work. I attached my phone
number and home address so Marvel/Mark Millar could contact me just in case they
were interested in Owl.
But instead Marvel/Mark Millar immediately used this information to hack into my
phone gaining access to my phone’s microphone, two cameras and my internet so
they could secretly listen to and watch me as I worked on Owl.

• d
Me: Oft 9.8012 4,',10/AM
gufotyfr
fn prevented’
•nr —■^pr ^nn^n3i7©amail-cons»

V

•M
m

Michael,

. ' irl$

Someone recently tried to use an application to sign In to your Google Account
mlchactbsnnett3l7@Qmail.com. We prevented the sign-in attempt ft case this w>i f
a hijacker trying to access your account Please review the details of the eigrvln
attempt'.
Tuesday, October 9,2012 8:10.05 AMC‘
IP Address: 41.98.5.218
Location: Setil. Algeria

.,r

Above is a Phone hack that was discovered by a Google scan in 2012 and says “this
was a hijacker trying to access your account.” The hack is from Algeria.
The defense claims I haven’t provided any evidence to support my accusations of a
Marvel/Mark Millar phone hack but I provided pictures of 2 sentences right next to
each other from'the 2014 Captain America the Winter Soldier movie that contain
the words “hijack” and “Algerian”.

4

t

f

V.I
ho v the hell did a French p.rp*--

<•

^Idrmge to hijycK<a cove,t % M I fe l D For-the pfeeitf, 'doimeWm*,,.
vessel in broad daylight?

he's Algerian.

Marvel/Mark Millar are stealing from this section of my Owl books in the scene
above.
Owl Knight’s Quickening Excerpt: Page 8
The latest project Morikaido’s team is working on is a Remote Control
Soldier or R.C.S. Dr. Morikaido and James have been working on
R.C.S. project for the past sixteen months, and were nearly complete.
The project was entering the demonstration phase where the R.C.S.
would be scrutinized by the Military. Military Management
would determine how many would be ordered or if any would be
made at all. It was a very stressful time around the laboratory for all
who were involved with the R.C.S. project.
-Owl’s project being scrutinized by Military Management in the Owl books is like
Pierce’s project being scrutinized by Military Management in the 2014 Captain
America The Winter Soldier movie.

5

’ '

The defense takes issue with my claims that Marvel/Mark Millar hacked into my
phone and threatened my life.
I believe using their illegal hack on my phone Marvel/Mark Millar found my 2012
Owl Knight’s Quickening book on Amazon Kindle then read the synopsis where at
the end I mention my YouTube fishing videos then they went to YouTube to watch
my videos.
In my opening statement I stated in the 2014 Captain America The Winter Soldier
movie Marvel/Mark Millar dress Falcon exactly like I am dressed in my YouTube
fishing video “The Mike and Andy Fishing Show Victory Pond part 1” published on
March 6, 2012.
Marvel/Mark Millar also highlight and crash a truck just like the truck I am driving
in the same March 6, 2012 YouTube fishing video.
Pictures from Captain America The Winter Soldier exhibit 16 Owl in Street
Clothes = Falcon in Street Clothes

All vehicles stopped

CURES SCREECHING)

I know that the First Impressions of these Marvel/Mark Millar Taunts and Threats
look unbelievable.

6

The Marvel/Mark Millar illegal phone hack was used by the hackers to put 35
“Null” comments on my You Tube Videos over a 3 year period and as soon as I
called out Mark Millar October 2015 on Facebook and Twitter all 35 “Null”
comments that took 3 years to accumulate were all taken down at once proving
Mark Millar has access to the illegal Marvel phone hack.
I believe Marvel/Mark Millar were taking so much pleasure in stealing all of Owl’s
original attributes for they’re Avenger Series essentially “Nullifying” Owl they
could not resist taunting me with these 35 “Null” comments.

The Marvel character Falcon is Unrecognizable to what he used to look like before
2008 when I sent in Owl to Marvel.
Now Falcon looks and acts strikingly similar to my character Owl.

+
2011 Falcon and Captain America get Owl’s Pants (Military style with built in Knee
Pads).

r\

S’

--o o r,
or*;

o

o o o -^2

o'
o

o

o o Y
O
0

0 1
0 0

Vfm

y

t

7

2013 Agents of S.H.I.E.L.D. Marvel TV show gets Kelly Westcott’s C-15050 cargo
plane that has the ability to lift off vertically.

Owl Unlikely Crusader Excerpt: pages 36-37
Janies sneaks onto the Copter & Patton airfield, climbs aboard Kelly’s C-15050
cargo plane and hides. The plane is called the C-15050 because of its ability to lift
straight off the ground when it’s not loaded down with cargo.

2014 Captain America The Winter Soldier movie Falcon gets Owl’s wings, Owl’s
vest and Owl’s bulky collar.

8

2012 Avengers movie Hawkeye gets Owl’s Vest, Owl’s Pants (Military style with
built in Knee Pads) and Owl’s Collapsible Anchoring Probes.

Owl!s Anchoring PrQbe,

This scene is strikingly similar to the 2012 Owl Knight’s Quickening’s rewritten new
beginning were Owl tethers himself outside a building by shooting his Grappling
Chuck into the side of the building just like Hawkeye is doing here.
Owl Knight’s Quickening excerpt: Page 3
“Screw this I know I got another anchor here somewhere.” Owl
dangles hundreds of feet above the quiet streets below searching
pocket to pocket.
“Here’s one.” Owl loads the last anchoring probe in his
Grappling Chuck, points it upwards and fires. POP! The probe
sticks into the concrete facade and starts drilling.
Owl orders his probe as if it could hear him, “Get some meat.” The
probe drills into the concrete and does what it is told or more exactly,
does what it was designed to do which is to drill into most hard
surfaces. Owl hits the retract button on his Grappling Chuck and it
automatically pulls him up to the top floor.

9

2014 Captain America The Winter Soldier movie Black Widow gets Owl’s
Collapsible Anchoring Probe.
■

v-■

W

b
2014 Captain America The Winter Soldier movie Falcon steals Owl’s Wrong Floor
Joke.
>
•

»

A

»

4 Si

m
;

.‘5

>
41st fioori Northwest corner1

where >
We’re on it' Stay

f

41st floor! 41st!

like tip^ put the floor numbers
on the outside of the building.

-Owl miscounting the floors on a building from the outside of the building is like
Nick Fury miscounting the floors on a building from the outside of the building.
Owl Knight’s Quickening excerpt: page 43
James turns around, retracts his respirator and smiles at Rebecca, “Not the most
graceful entrances. I’m sorry about that; I forgot this building doesn’t have
a thirteenth floor so I miscounted.”

10

2014 Captain America The Winter Soldier movie The Winter Soldier gets Owl’s
Grappling Chuck.

Owl's Grappling Chuck,
*

*

2016 Captain America Civil War Captain America gets Owl’s Grappling Chuck

11

2015 Avengers: Age of Ultron movie Captain America gets Owl’s Electromagnetic
Gloves

-Owl’s Wing’s/shield’s ability to seek out his electromagnetic gloves is like Captain ,
America’s shield’s ability to seek out his electromagnetic glove.
<
Owl Unlikely Crusader excerpt: page 41
Owl snaps his chucks back on his vest and all the men charge in. Owl clicks on
Combat Mode the wings pop out seeking James’s electromagnetic gloves as he
readies himself.
2015 Ant-Man movie Ant-Man gets Owl’s Automatic Respirator Mask.
X

Wf

PV

“V

H.

fl
Mill i

V

*
\

#1../ ^

-4L

%

2015 Ant-man movie Falcon gets Owl’s Super Spy Camera and Super Hearing

Owl Knight’s Quickening excerpt: page 4
The helmet houses one of the most modern spy cameras known to
man just like his first working prototype did. The camera sits on top of
his right eye and has night vision, heat vision, the power of a
telescope and the ability to zoom in and record anything and

12

everything. On top of his left eye sits a mini satellite dish made of
materials that resonates sound waves that originate miles away.
The sounds are recorded and cataloged by an advance computer
system.
2017 Spider-Man Homecoming movie Spider-Man gets the Owl Treatment including
Owl’s Computerized Super Spy Camera, Super Hearing, Parachute, Scary
Electronic Voice, Storylines, “Guy in the Chair” character, Computerized
Animatomic Appendages, Kelly Westcott’s C-15050 cargo airplane.

w

1

SE

*

I

i

I

EES3

\
n
Aotfvsffr»g Biiw/iaW
ft$6dfwiafsSSfi<rS AirVAS

J

lEgilS®
'

Tf
\

Tnwil llto iAfjiw

'>i» i«st is

design.

v\nu5ttj. iiuai's so m&i,

2016 Captain America Civil War movie starts just like the Owl books.

Owl excerpt: page 5
While his wings stay stationary Owl turns his head 180 degrees and
starts sprinting towards the edge of the giant building, swan
dives off, free falls a couple of stories until his wings pop open
like two large switch blade knifes. He rounds the corner of the
building and heads toward the fight. While in flight, Owl
watches the chaos develop and maps out the terrain.

13

2016 Captain America Civil War movie Falcon steals Owl’s Roundhouse in Wing
Suit.
"fT

o
v

ir
I*-

F'v ,

vjr*

-o

H

n
*

pri
r

V*
■A

Vfc.
Owl Knight’s Quickening excerpt: page 15
James gets suited up, “Hey Tom, check out the new and improved
Hands Free mode.” In Hands Free mode the wings support their
own weight and assist the suit’s wearer in maintaining
balance. The wings float on James’s back while he starts shadow
boxing, and kicking. Then James jumps up and does a roundhouse
kick easily and without getting tangled up with the wings.

2016 Captain America Civil War movie Falcon uses his Owl Wings for shields.

Owl Knight’s Quickening excerpt: page 51
Although Owl had been shot many times, the suit’s armor had taken most of
the punishment and was ready for more.
f

Owl Knight’s Quickening excerpt: page 51 & 52
Dr. Morikaido targets James and fires two missiles at him. Owl lies down on his
back and shields himself with his wings.

14

2018 Ant-Man and the Wasp movie Wasp gets Owl’s ability to run sideways on a
vertical surface in a wing suit.

Owl Knight’s Quickening excerpt: page 22
Right before James collides into the structure he puts his feet on to the building’s
glass windows and runs sideways on it until he is able to push himself off the
building.

2010 Kick-Ass movie Mark Millar character Hitgirl gets a miniature version of
Owl’s Sickle Chuck.

Basically Mark Millar steals Owl’s Sickle Chuck by miniaturizing it and tripling it
making it into three sickles attached to each other at their bases.
Owl Unlikely Crusader Excerpt: page 42
Then he pulls out his Sickle-chucks. He extends a good length of diamond
fiber cable then throws the sickle upwards, hooking it on one of the ceiling’s
rafters.

15

Owl Unlikely Crusader Excerpt: page 20
After the Baton chucks James made Karma Sickle Chuck. He put a
little more steel in this pair to give them some weight. In one
handle an ominous Sickle blade sat ready to pop out with the flick
of a switch. The handles lock together, they were attached by
diamond fiber that extends and retracts just like the Baton chucks.
2018 Avengers: Infinity War movie big alien gets an oversized Owl Sickle Chuck.

-Owl throwing his Sickle Chuck tethered by a cutting diamond fiber cable is like the
big alien throwing his Oversized Sickle Chuck tethered by a cutting metal cable
made of knives.

Owl Knight’s Quickening Excerpt: page 27
The cable was made of Diamond Fiber, a strong cable like fiber that
could saw through just about anything. After the Baton-chucks
James made Sickle-chucks. He put a little more steel in this pair to
give them some weight. In one handle an ominous Sickle blade
sat ready to pop out with the flick of a switch. The handles lock
together, they were attached by diamond fiber that extends and
retracts just like the Baton chucks.

16

2018 Avengers: Infinity War the big alien gets a full size Owl Wing in Combat Mode
and a miniature size Owl Wing in Combat Mode.

\

1
/

■ V

N
J

r.

/

>-y
Drawing of Owl with Wings in Combat Mode

2018 Avengers: Infinity War movie the big alien gets a Full Size Owl wing in
Combat Mode that automatically pops out and is attached to his right arm.

Y

%

<
l»i

ti

*+

}
<?

•5
.• j|

2018 Avengers: Infinity War movie the big alien gets a Miniature Owl wing in
Combat Mode that automatically pops out and is attached to his left arm.

(GROWLING)

(GROWLING)

-Marvel/Mark Millar often Split, Shuffle characters and scenes and adjust the Size
of objects to hide they’re plagiarism.
17

2014 Big Hero 6 movie Marvel’s parent company Disney gets in on the theft of my
Owl IP as they give Wasabi Owl’s Laser Wings in Combat Mode.
Owl Knight’s Quickening Excerpt: Page 27
He leaps into the air, cranks on the power and spins like a helicopter seed
falling from a tree.
■c..

)

-Owl leaping into the air and spinning like a helicopter seed falling from a tree is
like Wasabi leaping into the air and spinning like a helicopter seed falling from a
tree.
Owl Knight’s Quickening Excerpt: Page 27
He has attached razor sharp carbon fiber blades with micro laser serrations to
the front and hack of each wing.
Such large swords have never felt so light.

-Wasabi s body is built like the big alien’s body and he is wearing a Reddish—Orange
sash, shoulder and Chest pads just like the big alien is wearing.

18

Owl Knight’s Quickening Excerpt: Page 27
James practices his martial arts while wearing his suit in some remote woods.
The wings are in combat mode; and are attached to his arms.
Owl Knight’s Quickening Excerpt: Page 27
His hand controls allow him to control how fast the Static-fans spin, ranging from
idle making the wings weightless, to full power making James almost weightless.

0?

/A
!

/■
t

V

A !

!

Jf

\
i

V-

■

(

A

j

s

\

A
4'

-Owl having hand controls for his Owl Wings in Combat Mode is like Wasabi having
hand controls for his Owl Wings in Combat Mode.
2017 Thor: Ragnarok movie Insect Miek is the first Marvel character in the 20112019 Avenger series to get Owl Wings in Combat Mode.

-Owl having wing/swords attached to his arms and practicing martial art moves
with them is like Miek having swords attached to his arms and practicing martial
art moves with them.

19

2017 Thor: Ragnarok Marvel character gets Owl’s ability to cut down a tree 10
inches in diameter with his sword.

Owl Knight’s Quickening Excerpt: Page 27
James is slashing through the foliage testing the strength of
the hlades. With a few final martial art moves James comes to a
rest. He is standing in the middle of a large area that he has clear-cut
with his wings; everything from huge bushes to trees ten inches in
diameter, lay on their side.

-It would be congruent with Marvel/Mark Millar’s established need for Revenge on
Michael Bennett Modus Operandi to make this first of many Marvel Characters in
the 2011-2019 Avenger series to get Owl’s Wings in Combat Mode an Insect named
“Miek” which is an anagram for my name “Mike” and is pronounced like the word
“meek”.

20

2018 Avengers: Infinity War Captain America gets Owl Wings in Combat Mode with
Retractable blades.

Owl Knight’s Quickening Excerpt: Page 31
As James runs away from the crime scene he makes a couple mental notes:
Maybe I should make the wing blades retractable.
2014 Captain America The Winter Soldier Falcon gets Owl’s Future Retractable
Wing Blades

2008 Owl Unlikely Crusader excerpt: page 20 & 21
The wings are in combat mode; they are attached to his arms. He
has attached razor sharp carbon fiber blades with micro laser
serrations to the front and back of each wing. Two double-sided
blades that are three and a half feet long, “Such large swords
have never felt so light.”

21

2018 Avengers: Infinity War Iron-Man gets an Owl Wing in Combat Mode that
automatically pops out is attached to his arm.

2019 Avengers: Endgame Falcon gets Owl Wings in Combat Mode that
automatically pop out and attach to his arms.

Below 2016 Captain America Civil War movie Spider-Man asks Falcon if his wings
are made of Carbon Fiber (The same material Owl’s Wings Blades are made of).

22

Below at the end of the 2019 Avengers: Endgamemovie the Falcon character (Owl)
becomes the new Captain America so Marvel/Mark Millar are now poised to steal
more Owl IP from me for Falcon.

i

;

'
t

' r
t

.t...

i.-

•v

•

V'

k

;
}

■ '

- ■ i

i

V■ u

;

i

23

Marvel/Mark Millar recreated 7 wounds from the Owl art work and Owl story that
match up to the 7 wounds Captain America suffers at the end of the 2014 movie
Captain America The Winter Soldier.
1 Eye socket injury
2 Cut on left cheek
3 Stab wound in right shoulder
4 Grazing wound or Scratch

5 Gunshot exit wound to left leg
6 Gunshot exit wound to upper right arm
7 Gunshot exit wound that bleeds through

I believe the probability that all of the seven wounds matching up with each other is
astronomically impossible and comparable to that of the probability of matching
DNA evidence.
I believe the only logical explanation is that Marvel/Mark Millar are specifically
stealing Owl IP from me.
I explain the 7 wounds in Captain America The Winter Soldier exhibit 4
Wounds.
After the 7 wounds there are several strikingly similar events that happen in the
Owl books and the 2014 Captain America The Winter Soldier movie.
-Hero punches villain then pulls villain’s head down to meet his knee.
-Hero saves villain by lifting him up; villain takes advantage by attacking hero and
injuring his eye socket.
-Man falls from a helicopter into green water.
-Another man is left dangling from the helicopter skid or rail.
-Bad Guy comes out of a door and is met with cars.
-Man is rushed through hospital doors looking up at ceiling tiles.
-Hero ends up in a hospital bed with stiches in his head next to 3 women.
-A nurse is mentioned.
-There is an investigation going on.
-Hero is interviewed.
-Cameraman with microphone leaves a room.
-Friend brings a file on a person the hero is searching for.
-Friend questions hero about finding the person; hero replies he has got to do it.
I believe with the Captain America The Winter Soldier exhibits 1-47 that I turned
into the lower Courts I can prove that 90% of what happens in the 2014 Captain
America The Winter Soldier movie happens in my Owl books and 70% of the 90% is
in chronological order.

24

The reason why Marvel/Mark Millar feel the need to rub my nose in the fact that
they are stealing Owl IP from me to make the 2014 Captain America The Winter
Soldier movie and threatening me is for revenge because in 20111 contacted Mr.
Jay Kogan the Vice President for DC Comics Legal to tell him that Marvel/Mark
Millar stole some of DC Comic’s Batman Characters to make the 2010 Kick-Ass
movie.
Below are some screenshots of emails between Mr. Jay Kogan, Mr. Joel Press and I
dating back to February 21, 2011.

'Ubjeci Additions Information
rtetto Joel Pfess
•The first document is a PDF
>The secwd

**

rnSde

a

in his office using Adobe Professional software

to MaVrvel

hT

draw‘ns and my manuscript (2008 version, the one I

so please call if you have any questions Th L
k a.,?lbard ,0 see bu* no' impossible I would like to explain furthat
00 9 eaSiM 10 read fo""a' P«ease le, me know if yo" waSmrne' MotaZ COnneCtkmS
has scared the crap out of me and I

am praying you can help me I think I can help you.

-r-**

Mkhael ionnett

B

Ip;

©dccomics.com

hank you Jay Kogan,
Michael iennott
On Fri Fob 2§lht 2011 12:08 AM 1ST Kogan, Jay wrote;
>Mtchaol
>

>JQ8» Press forwarded your email and voice mall le me, I will review at my earliest opportunity
>4 ay
>

'Jay Kogan
toCK«Pl?®lcJem Alness 8 Legal Affairs:
>DC S‘mS«?ll?Jl?te,,eetn'91 prPpartv 9nd Deputy General Q ounsel
>1700 BToSwa^amer 0r°^ enterta,nmem Company
>New York New York 10Q19

25

S>

Kogan* Jay
©d^emici.eem *
miehaelb@nnettil7@yah6e,cem

ThanH^ for lotting me know.
Jay Kogan

\Acs pmaMent business & legal Affaire:
01 ****«>«*
and Deputy
General Coun
*mZS^'mn™
Company0™
Cwn sel
Hw York, Hew York 1QQ19
T

F,

1

« us at www.deeomles.eom

-Original Message----

SS5.ssr»aasr“^
SuH«a. I sent it.

§3
Hg\\q Ja'y

MM

' »usv sent the F.|es
p-■■■:.. ^hankyou
®«nnen

and they should be th efe

tomorrow morning

^ssi61§ st&ryllfsfe
Jay

m “,a “ i*ei““ ■* b,im n,i,“ ,n °* ^ * *** * «» *. #. ,*
h)C) 35^

Kryptonrte'

^Mpfeffnsn fejeqti0f1

. pl fc-J

n'%arVT19 h% used Batman th

aracteis to gel revenge on DC

In 20111 saw the 2010 Mark Millar movie Kick-Ass and came to the conclusion that
Mark Millar a Marvel Comic book writer stole my 2008 Owl book and Owl art that I
sent to Marvel Entertainment LLC along with stolen DC Comics Batman
characters: Batman, Robin, Batgirl and Nightwing to make the movie Kick-Ass.
The reason why Mark Millar stole Batman characters from DC Comics is for
revenge because his 2007 Superman Screenplay was rejected by DC Comics.
26

I am guessing Mark Millar presented his 2003 DC Comics book “Red Son” where
Superman is a Communist in a movie format.
I am also guessing that Mark Millar might have been laughed out of conference
room.
Mark Millar suffered this humiliation publicly because he blogged about the events
leading up to the meeting and after.
If so this event could have fed Mark Millar’s disdain for America and Americans
this could have also been the catalyst for his revenge plot.
If the executives laughed at Mark Millar’s Communist Superman he might have
taken this rejection as a slight on his political communist beliefs.
The pictures below show Mark Millar with his 2003 DC Comic’s Communist
Superman book “Red Son”.

m

.3

T2T*<-.

t-

A

1

SUPERHflW
1HE HHMDC SF S1GEL

In the 2010 Mark Millar Kick-Ass movie the stolen Batman character while getting
burned to death shouts out references to Mark Millar’s 2007 Superman Screenplay
Rejection.
The stolen Batman character shouts out “Now Switch to Kryptonite” meaning
because of Mark Millar’s 2007 Superman Screenplay Rejection Mark Millar is going
to turn poisonous against DC Comics like Superman’s poison “Kryptonite”.

' u J- ..

Wavi sviltob to i<rypfon/fe.

C;.~, to Rabin's Keveitge/

The Stolen Batman also shouts “Go to Robin’s Revenge” meaning Mark Millar has
combined two Robins from the DC Comic’s Batman storylines the adolescent
“Robin” and adult Robin “Nightwing” to make the Mark Millar character Kick-Ass.

27

There is also some Superman references during the narration in the beginning of
the Kick-Ass movie and a character that looks like Owl and is immediately killed
off..

A
He can catch a bullet.

halt a speeding train

And leap tall buildings in a single bound

T.f,

*

M
-Is it a bird?

M

I beheve this Revenge Evil Symbolism is Mark Millar’s Modus Operandi and his
signature.
I told DC Comics Legal Vice President Mr. Jay Kogan that Mark Millar killed off
my character Owl then interjected stolen DC Comic’s Batman characters to replace
Owl in the Owl storyline. I sent Mr. Kogan my comparison between Kick-Ass and
my Owl book, along with all the other evidence I had collected that would help DC
Comics in a Copyright disagreement.
Jay Kogan after looking at my notes agreed with me that Mark Millar was stealing
from me but declined my offer to be Co-Plaintiffs in a law suit.
Mr. Jay Kogan told me I could Subpoena him if I ever got a law suit going but once
the Defendants removed me from the State Court I had to surrender my 4
Subpoenas I had acquired from the State Court and lost my Subpoena power in the
Federal Court.
I beheve DC Comics and Marvel/Mark Millar may have settled with each other
outside of court.
A possible DC Comics settlement might have been lucrative TV show deals?
On September 22, 2014 the TV show “Gotham” aired on FOX where Mark Millar
worked as a Creative Consultant from 2011 until he was fired in 2015.

28

Mark Millar got the job with Fox as a Creative Consultant because of his work on
the 2011-2019 Avenger movies series and are the movies stated in my law suit.
This is how Marvel/Mark Millar is able to spread out they’re Copyright Infringing
Plagiarism of Owl IP over the past decade.
(I believe at this time Fox was partners with Disney and now Fox is owned by
Disney.)
About a month later on October 24, 2014 the TV show “Constantine” aired on NBC
which is owned by Universal.
After DC Comics I tried to contact Time Warner who owns DC Comics, Disney who
owns Marvel, and many others.
Most of the time I sent a letter containing an explanation of my position and a Proof
CD with my Owl vs. Kick-Ass comparison notes, Proof collages with Kick-Ass
pictures next to Owl book excerpts, a copy of 2008 Owl Unlikely Crusader with
Cover Art, pictures of my 2008 “Poor man’s” Owl Unlikely Crusader Copyright and a
Video of myself talking to Jay Kogan on the phone and telling him Mark Millar
stole DC Comic’s Batman characters for revenge for his 2007 Superman Screenplay
Rejection.
When I started my law suit in 2017 I turned in a copy of this 2011 Marvel/Mark
Millar Defamation Campaign Proof CD to the State Court and I turned in a copy of
this Proof CD to the defendant’s lawyers but the defense never sent me a copy of
this Proof CD when they removed my case from the State Court and served me.
If the defense failed to give me a copy of the 2011 Marvel/Mark Millar Defamation
Proof CD does this also mean the defense failed to provide a 2011 Defamation Proof
CD that contained the motive for Marvel/Mark Millar’s need to get revenge on me to
the Federal Court when they removed my case from the State Court?
Question:
If the defense failed to properly serve evidence to the court by omitting the copy of
the 2011 Marvel/Mark Millar Defamation Proof CD as they did me would this have
any bearing on the legality of my case?

29

2017 Spider-Man Homecoming movie
• r

Kg]

■Ti
h?

^*111

|v

lit* Iffilfjgjfc

Above in the 2017 Spider-Man Homecoming movie I believe when Marvel/Mark
Millar writes “free clinic” and “hybrid puppies” they are referring to all the old
Marvel Characters they have revamped by applying stolen/free Owl IP to them,
giving them the “Owl Treatment”,
Some of Marvel/Mark Millar’s Hybrid Puppies...
Owl/Falcon Hybrid Puppy

m

m

s i

(jl

+

¥

&

rpEi
VI

Owl

¥

y s\

il

Owl/Captain America Hybrid Puppy

30

=

Owl/Ant-Man Hybrid Puppy

Owl/Hawkeye Hybrid Puppy

Owl/Ant-Man and Wasp Hybrid Puppies

r

Ow1/Vulture Hybrid Puppy
si a

V.

f"
\

Like all the other Owl IP Revamped Marvel Characters Vulture is unrecognizable
to what he looked like before I sent Owl to marvel in 2008 now in the 2017 SpiderMan Homecoming movie Vulture looks and acts striking similar to Owl.
-Vulture now has mechanized wings powered by technologically advanced fans just
like Owl.
-Vulture’s costume has lines on it similar to lines a vest would make like Owl wears
and Vulture is wearing Owl pants (Military style with built in Knee Pads).
-Marvel/Mark Millar also steals from the Owl books Brian Nelson’s storyline of
having a Blue Collar Construction company and having it stolen from him for
Vulture’s new back story.

Above on the right is a picture of Owl and was published on the TIMW
entertainment Facebook Page Cover in May of 2014.
Marvel/Mark Millar “Lying in Wait” circle back around and steal Owl’s
computerized helmet with a beak on top of the respirator for Vulture.

32

I provided evidence that in the 2018 Spider-Man: Into the Spider Verse movie
Marvel/Mark Millar were still “lying in wait” ready to steal more Owl IP from me
when in July of 2016 I published this drawing below of a new Owl comic book hero
on the TIMW entertainment Facebook page, my Facebook page and my Twitter
page.

FftANK 2
VSaett Mown

Bnrs ms jtewiil

O

o

Black Widow

> \

%

b!B
a.

y

;m
Cemmentary by Rebeeee Stewerte

THIS

Black Widaw is netjugt @ Bueerhere dragged In
§ bleak ieaterd with red bikini battame.
ihi paasGsaea unbreakable Integrity end arachnid
like iatclllgeneo.
Tewne City is lueky to have bar,

33

n )0

First Marvel/Mark Millar steal the Frank and Nancy father/daughter crime fighting
dynamic and the spider/human psychic communication/interaction with the Black
Widow character to make the new Peni Parker Spider-Girl character, her best
friend spider and her father’s spider robot.
fr

D
-Crime fighters Black Widow, Frank the father spider and Nancy the daughter
spider swinging through the air all working together psychically linked is like
Crime fighters Peni Parker, Peni’s father’s spider robot and her best friend spider
swinging through the air all working together psychically linked.

who live* fnt/de my father* robot

who Itam fosfefc my father* robot.

34

Below Frank the father spider is on Black Widow’s wrist and biting her arm.

-Black Widow willingly placing her spiders on herself (wrists) is like Peni Parker
willingly placing her spider on herself (wrists).

Uiastsi

ISPEAKS IN JAPANESE]

35

WASPS]

So Marvel/Mark Millar just trades out Black Widow’s Frank the Father Spider with
Peni’s Father’s Spider Robot and then blatantly steals the rest of the Owl IP.

*

Peni’s Father Spider Robot dies; Peni collects her spider and willingly puts her
spider in her hands then the Spider crawls onto her arm.

ft

■>

S'
L’;

y

36

i,'

\

p
portal open. You Tint, Penh

Peni Parker thanks Miles with her best friend spider on her arm.

-Black Widow carrying her spiders on her arms while she flies through the air is
like Peni Parker carrying her spider on her arms while she flies through the air.

37

Ft&MK 1

&&
J#W1]

Secondly Marvel/Mark Millar steals the concept of the Frank and Nancy names
from the Black Widow drawing which is an obvious reference to the Father
Daughter entertainers Frank and Nancy Sinatra to make Marvel’s new character, a
Frank Sinatra Spider-Man Hybrid called Spider-Man Noir.

BRd f'm e private ayo.

Hey, fefisc.

31

m

a

%

jfSi

is

21

Emm
eroamo,
end I Iffco to fl&ht NbsJc. A let

38

'f

nlt@i
a cjxsaniPs
end i Wfe® fa figftf Wsst/e. A fat

Here I believe the hat represents the stolen Owl IP like the Frank Sinatra concept.
Marvel/Mark Millar shoves the fact in my face that they are stealing Owl IP
because of my 2011 defamation campaign against them.

-LWi

Neu hud-boiled turtle dapperl

'iou \ueX bumping gums?

-Owl book’s mention of Model Ts, Hover Cars and Bumper Cars is like Spider-Man
Noir using a Hoovering Model T as a Bumper Car bumping it into another car.
-Thomas Strainer using a Model T Car like a Bumper Car is like Spider-Man Noir
using a Model T Car like a Bumper Car
Owl Knight’s Quickening Excerpt: Page 10
Wide-eyed Joanne says, “Jimmy we also rode the Model Ts too, I think Tom hit
every curb there was to hit.”
With a mouth full of food Thomas mumbles, “I thought they were bumper cars,
anyway that’s why they invented hover cars.”

'tou hard-boiled turtle slapperi

'tou hard-boiled turtle elepperl

39

y ou hard-boiled turtle dappert

Spider-Man Noir retrieving the stolen Owl IP hat represents Marvel/Mark Millar
using then keeping the stolen Owl IP.

tara-tesrisa turns sispf^ri

40

M mi \\«ra-AvBri<Hi Ijsrlls sispjiarf

Question:
Should the Damages be increased?
The current Damages amount of 1.2 Billion was initially based on 3 Marvel Movies
and 1 Marvel TV Show but Marvel/Mark Millar has not yet relented in their theft of
my Owl IP.
The defense has labeled my case piecemealed by but if not for Marvel’s willingness
to hack into my phone and repeatedly circle back around to steal intellectual
property from me for many different Marvel projects my case would not be so
piecemealed.
My piecemealed Copyright Infringement Case is a byproduct of Marvel/Mark
Millar’s piecemealed Criminal Willful Copyright Infringement.

Eligible Avenger Movies with stolen Owl IP in them.
(Time has run out to make a claim on many Marvel/Mark Millar projects.)
Movie/TV show
Box Office
DVD
9
9
2013 Agents of S.H.I.E.L.D. TV show
70,992,641
714,401,889
2014 Captain America The Winter Soldier
863,800,000
145,742,627
2014 Guardians of the Galaxy
86,793,384
2015 Avengers: Age of Ultron
1,403,013,963
72,089,089
2015 Ant-Man
518,858,449
80,216,871
1,348,258,224
2016 Captain America Civil War
2017 Spider-Man Homecoming
62,852,039
880,166,350
67,804,978
846,980,024
2017 Thor: Ragnarok
93,644,881
1,348,258,224
2018 Black Panther
2,048,797,682
2018 Avengers: Infinity War
115,641,193
44,263,342
623,144,660
2018 Ant-Man and the Wasp
47,094,533
375,243,139
2018 Spider-Man: into the Spider-verse
9
2,798,000,000
2019 Avengers: Endgame
13,768,922,604

Known Totals: 14,656,058,182

887,135,578

I believe if the Court found the Defendants guilty of Criminal Willful Copyright
Infringement I would be entitled to a percentage of the movie sales above because
for the past decade Marvel/Mark Millar has stolen Owl IP to revamp the look and
actions of many Marvel Characters and mixes Owl IP with Marvel
storylines/characters spread out throughout the 2011-2019 Avenger Series.

41

I don’t believe the 2011-2019 Avenger series would have been as successful if the
many Marvel characters looked and acted like they did before I sent Owl into
Marvel in 2008.
Below the top row shows Pre-Owl Marvel Characters, the 2nd row shows Post-Owl
Marvel characters in the 2011-2019 Avenger series, the 3rd row shows Owl art.

I believe if the Defendants are not punished to the full extent of the Law that this
will send a message to the Defendants to keep on stealing from people even ramp up
their stealing efforts.
I believe the Law in these matters states that the Defendant’s Profits equals the
Plaintiffs Damages.
I believe that copyright infringement laws extend to include merchandizing, such as
Action-Figures/Toys, Video Games, Fast Food Promotions, etc.

42

If the Standard for my case is the Court must accept as true the allegations set
forth in the complaint drawing all reasonable inferences in the light most favorable
to the plaintiff and the plaintiff must allege sufficient facts such that it is
reasonable to expect that discovery will lead to evidence supporting the claim.
Question:
Is the evidence I provided substantial enough that it is reasonable to expect that
discovery will lead to evidence supporting my claim?
I have provided two IP addresses for my phone hack, the IP Address from 2012 and
this one below from 2014.
Someone recently used yeuf pasawsrd to try to oi@n in to your Geegie Aeeeunl *
mi<Sia,eitjen.nitt31T@gmalt.a@m,
We prevented the eipdn attempt In ease this was a hljaeker trying to eee§§§ your account pibs
review the details of the e!p*in attempt:
Sunday, October 12,2014 1:18:41 PM UTC
|jy# Address: 74.190,69.168 (addU74«190-69-189,aam.belloouth.net)
«4ecation Atlanta QA, @A, USA
I provided this Amazon list of Owl book sales with the third one from the top
labeled GB dated August 2012 which might stand for Great Britain where Mark
Millar is from.
AMAZON DIGITAL SS&VtCES INS.

poessfiosea

SEATTLE WAflftt 090983
<236j74Q*?SQ0

VCItMft NAMi; MICHAEL SENNET?
INVQI0ENUM8BI

tWV BATS

OSSSRlPhOM

6tR«GITAk>4PgKNS&
&FO-©£!?AWB§6PM6
SGHUPIGITAI^VMKYJV
^2^SITAL4NA^§0
SK|.D!GrTAL.1S74&ST
?AM3!GffAL*B«MVMP^

1Wwv12
1$JuM2
24-Au|-1 2
12«A|jM3
20-See-1 a
1 ?-fea*t4

ryfeaj1t^ndto Olrsct Puts
Juit 2012 IQmlb Sheet IViU
Ju! 2312 Me Street Pub
Ma#201S Kwda Dheffi Pub
Nsv 2013 Knstle Silent Pub
Jan set 4 Kindle Direet Pub

The 35 “Null” comments left on my You Tube videos by my phone hackers over a
three year period must have left a digital trail.

43

I humbly come before The Supreme Court to ask the Court to please consider the
totality of the evidence I have presented against Marvel/Mark Millar that proves
they have been stealing Owl IP specifically from me ever since I answered they’re
advertisement on they’re Marvel website in 2008, that Marvel/Mark Millar hacked
into my phone and that Marvel/Mark Millar are “lying in wait” to steal more Owl IP
from me.
Because of Marvel/Mark Millar’s need to get revenge on me for my 2011 defamation
campaign they rubbed my nose in the fact that they can steal every sentence from
my Owl books and steal every pixel from my Owl Art many different ways and by
using they’re plagiarized movies to Taunt and Threaten me they ultimately ended
up Confessing to they’re crimes.
These Taunts and Threats are Marvel/Mark Millar’s Admissions of Guilt.
-Falcon looks and acts strikingly similar to Owl.
Below are pictures of Falcon next to a picture of Owl’s body with Falcon’s head on it.

-In the 2014 Captain America The Winter Soldier movie Falcon is dressed like how I
am dressed in a YouTube video published in 2012 and is referenced in the 2012 Owl
Knight’s Quickening synopsis on Amazon and Marvel highlights and wrecks a 2006
Silver Dodge Dakota the same kind of vehicle I am driving in the same video.
-The words “hijack” and “Algerian” in the 2014 Captain America The Winter Soldier
movie which coincides with the illegal phone hack on my phone discovered in 2012.
-The 35 “Null” comments left over a three year period on my YouTube videos made
by my phone hackers using they’re illegal phone hack.
-The seven wounds Captain America suffers in the 2014 Captain America The
Winter Soldier movie that match up with seven wounds Owl suffers in the Owl art
and Owl books and the strikingly similar events that happen after the 7 Wounds.
If a company like Marvel Entertainment LLC can employ an individual like Mark
Millar and together commit the crime of Criminal Willful Copyright Infringement
while at the same time stand up on their proverbial soap box and confess to they’re
crimes with these brazen “Admissions of Guilt” that yes we are stealing Owl IP
from Michael Bennett because he tried to save his Owl IP from Marvel/Mark Millar
by going on a 2011 defamation campaign, I hope we all can agree that this is an
egregious illegal abuse of power.

45

While researching my case I accidently stumbled across a possible Marvel/Mark
Millar plot to use harmful subliminal messages to destabilize the United States of
America.
I was breaking down the “Kentucky” scene in the Mark Millar 2015 Kingsman
movie where it seemed to me Mark Miliar, Fox along with Marv Films who made
the 2010 Kick-Ass movie were using the textbook technique of subliminal
programming to program violence into viewers by showing multiple violent images
in a rapid, sustained succession.
I thought the “Kentucky” scene’s potential to be dangerous to the public was so
disturbing it was my responsibility to say something.
I pointed out possible ways the “Kentucky” Subliminal Programming scene could
work and this possible Copy Cat Crime.

feSPFFD
F CAMERA
‘OUTRACt

In Christchurch New Zealand On March 15, 2019 Brenton Tarrant live streamed
himself going into churches and killing 51 men, women, children and elderly just as
Galahad live streamed himself going into a church and killing 52 men, women,
children and elderly in the “Kentucky” scene in the 2015 Kingsman movie.
Galahad’s 52 victims in the 2015 Kingsman “Kentucky” scene probably symbolizes
Fox/Mark Millar/Marv Films using they’re “Speed Camera Outrage” scene to attack
America’s fifty states, Puerto Rico and Washington DC.
I also pointed out multiple examples in the 2011-2019 Avenger series where
Marvel/Mark Millar are using subliminal imagery and subliminal suggestions
meant to enrage unsuspecting viewers mainly targeting African-Americans.

m
i.

v"4

\T, >if**

j

>r
, *

\VT

w i.
t-

that vnt bunt by alavw*.

* ... •
vxum'V built liy-

46

ii

ft

a

r
*
»
♦i

4 ‘4

V .

*'
*
' ^

(M

a]

4*

i.
%*

~ 1!
S

Vm going to it^sjg him
\t he touches you again,

V

;•

•r

p

■

X%
i

to this dasic.

.f"

_M
Americans.

**

[-j

when black folks
started revolutions

’* "they’U arm oppressed people
ai\ over the world...

so they can finai/y rise up
and kill those in power.

M

|P'

And'anyone.e/se
who takes their side.

And their children.

y:

?

47
■i

gonna start over,
and this time, we're on top.

r

I believe this scene is meant to subliminally enrage unspecting audiences using the
color red with the image of a African-American man putting his “hands up” then
being shot in the back and killed by a white man.

Below Marvel/Mark Millar and Disney show African-American actors telling
Caucasian actors they “Hate” them for no apparent reason.

48

'

/

/

A

<N

with my_a'me,es.te>rs

i
-iusfbury me in the ocean...

fbaf. jumped from the ships,

*

/

A

Cn

'Cause they4)$n;ew
death was better than bondage

I don’t believe that the average comic book movie goer is expecting that they’re
nation’s history is going to be weaponized and used against them when they go to
watch these movies.

■rr

v

!&s
■ tK

}

the iUvjsio.n£'oY d/\$s'(&0
threaten our very existence.

At the end of the movie Black Panther eloquently articulates Marvel/Mark Millar’s
plan along with Fox/Marv Films’ plan to use their massive media powers to sow the
illusions of division using Anti-American subliminal programming and suggestions
to threaten America’s very existence.
I believe that if the Marvel/Mark Millar Anti-American plot they call “Speed
Camera Outrage” does not meet the Court’s Criteria for a full on organized attack
on America, the harmful narratives Marvel/Mark Millar seem so committed to
pushing in they’re media should be examined to determine their agenda and goes to
the Defendants’ Character.
Although I have only scratched the surface of the abhorrent culture of Copyright
Infringing Plagiarism, Identity Theft/Spying, Taunting and Threating they’re
victims fostered at Marvel Entertainment; I do look forward to the possible
opportunity of presenting more evidence to The Supreme Court that bolsters my
claims.

49

Reasons for Granting the Petition
A. I humbly believe I have presented enough evidence during the course of my case
that I have met the Legal Standard requirement that it is a reasonable expectation
for this Court that Discovery will lead to more evidence supporting my claim.
(The words “hijack” and “Algerian” in the 2014 Captain America The Winter Soldier
movie which corresponds with the illegal phone hack on my phone that was used to
put 35 “Null Comments on my You Tube videos.)
B. Including Marvel/Mark Millar’s own “Admissions of Guilt” I humbly believe I
have presented enough evidence during the course of my case that proves not only
Marvel/Mark Millar has been stealing Owl IP from me since 2008, hacked into my
phone to spy on me but along with they’re “Identity Theft” they have stolen my form
of Expression and Style, elements that are protected under Federal Copyright
Laws.
C. I have maintain in my case that during my research of Marvel/Mark Millar I
stumbled across what I interpreted as consorted effort to imbed Anti-American
Subliminal Programming in various Marvel/Mark Millar media productions.
There were multiple racist, violent images being shown in a rapid succession in the
2015 Kingsman “Kentucky” Scene meant to inspire Mass Shooters like the 2019
New Zealand Christchurch shooter.

itSk O'?,

T
>

A

■'

r\
%

'

In the 2018 Marvel Venom movie there was subliminal programming meant to
inspire Team Mass Shooters.

L and pH* them up in the comer.

Why would we do that?

50

Pita of bodtae, pflo ofhoad*.

Pile of bodies, pile orheads.

1 am Venom.

r */

..?\>now everything, Eddie.
-You do?

& team loader,

!

i

And you are mine.

s

£&..... -Everything about you.
-How?

VENOM: On my planet,
I am kind of a loser, like you.

51

•\ am Inside your head. 4
-{GRUNTS}

-But here, we could be more.
-Excuse me?

I presented multiple examples of Marvel/Mark Millar Anti-American Subliminal
Imagery targeting African-Americans meant to subliminally enrage unsuspecting
African-Americans.

In the 2018 Spider-Man: Into the Spider-verse animated movie I believe
Marvel/Mark Millar’s Subliminal messages to the youth of America was if you want
to join a street gang you must learn to “Turn Invisible on Command” and “Venom
Strike on Command” and if you take a leap of faith, join a street gang, learn these
skills, you will make “Bank” or a lot of money.

...hut he chose to be Solder-Man.

Xou won't. It's a leap of faith.

Below Miles (Spider-Man) as he takes his leap of faith, joining the “Spider Gang”
the blurry words, “TRUST US BANK” can be seen in the background.

“Venom Strike on Command” is shooting someone with a Gun or Taser on
command.

Hey, kid. Ahhl

"W.kM.Ahhl

Below Miles (Spider-Man) uses his “Venom Strike” to gets revenge on the white
man who shot his Uncle Aaron in the back while his uncle had his “Hands Up”.
*

77

. o

X
\

’

fix* '•i

53

“Turn Invisible on Command” is wearing a Mask on command.

'tQu don'tteM anyone who you are.

N\ce. Aw, that's a no-no.

Below Miles (Spider-Man) is in the back of a cop car and wants to hide his face as
his policeman father talks about “Masks”.
i
I *9+

s\

V

v

s..

/

.

ft
3

fe-'l
EF

V(

-I

m

t*A

Ig

£1

v rg
ill

54

-

g.

□
/
r

1
1

""

*

.\Vm otv th^lne, n<

WeanwhUe, my guys are out there...

' t'Hv V(a>V/ «0M f fa. M 4-i
-Speed up. \ Know these hida.

-llh-huh.

Below is a sampling of music lyrics played during the ending credits of the 2018
Spider-Man: Into the Spider-verse movie.

j Young prince 'bout to Ink up

»

r

V

\
T

$ They wanna fight

$ Enticed With the bleeding ' How can you expect me to stay sane?;

• V

•(

*

' >

rJ)l\
Below from 2018 Venom movie Eddie Brock yells “Mask!” then Venom covers Eddie
Brock disguising him and making him bullet proof with super strength.

I
-Mum jm.
-Copy!

-VENOM: Copy.

55

OFFXCER V. What the hell Is that thing

So what kind of people and companies like Marvel/Mark Millar would use their
website to solicit others to send in their writings and drawings then when people
send in their submissions instead of buying the IP Marvel/Mark Millar rather
commit Identity Theft and hack into their phones to spy on them?
I think these are some very evil people and companies.
So what happens when these evil people and companies have the ability to influence
the American population (At unprecedented numbers that I argue are largely due to
Marvel/Mark Millar’s theft of my Owl IP) and they abuse this power by using
Subliminal Programming to inspire mass shooters, inspire street gang activity,
exploit and exacerbate America’s cultural differences in an attempt to destabilize
the United States of America?
Conclusion
I would like to thank The Supreme Court of the United States for considering
granting my Petition for Writ of Certiorari and it is my hope that this Court will
accept my case and hold accountable possibly the most prolific thieves in the history
of man.

Respectfully Submitted,
Michael Bennett
P.O. Box 1532
Norcross, Georgia 30091
404-271-0713

X

56

